U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

June 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Lazelle Maxwell v. United States of America,
S.Ct. No. 20-1653
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on May 24,
2021, and placed on the docket on May 27, 2021. The government’s response is due on June 28,
2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including July 28, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-1653
MAXWELL, LAZELLE
USA

LISA SCHIAVO BLATT
WILLIAMS & CONNOLLY LLP
725 12TH STREET, NW
WASHINGTON, DC 20005
202-434-5050
LBLATT@WC.COM
ALISON K. GUERNSEY
CLINICAL ASSOCIATE
UNIVERSITY OF IOWA COLLEGE OF LAW
380 BOYD LAW BUILDING
IOWA CITY, IA 52242

